    REVIEW OF COST ESTIMATES FOR 

THE LOS ANGELES COURTHOUSE PROJECT 

   REPORT NUMBER A080125fPIRJR09001 


            JUNE 23, 2009 

   REVIEW OF COST ESTIMATES FOR 

THE LOS ANGELES COURTHOUSE PROJECT

  REPORT NUMBER A080125/P/R/R09001 


            JUNE 23, 2009 

                      REVIEW OF COST ESTIMATES FOR 

                   THE LOS ANGELES COURTHOUSE PROJECT

                     REPORT NUMBER A080125/P/R/R09001 



                                TABLE OF CONTENTS




EXECUTIVE SUMMARY                                                                           i


INTRODUCTION                                                                               1

     Background                                                                            1

     Objective, Scope and Methodology                                                      2


RESULTS OF AUDIT                                                                           4


     Overview                                                                              4

     Differing methodologies used to develop estimates offer varying levels of detail.     4


            Original Construction Prospectus with 41 Courtrooms                            4

            Revised Proposal with 36 Courtrooms                                            6

            Standalone Courthouse to Consolidate District Court Operations                 7

            Roybal-Spring Street Expansion                                                 8

            20 Courtroom Building with Roybal Renovation                                  10

     Estimates use judgmental escalation rates and “limited market fee.”                  12 


     Conclusion                                                                           13

     Recommendation                                                                       13

     Management Comments                                                                  14 


APPENDIX A – MANAGEMENT COMMENTS                                                         A-1 


APPENDIX B – REPORT DISTRIBUTION                                                         B-1 

EXECUTIVE SUMMARY


Purpose

The audit objective was to review cost estimates for the Los Angeles Courthouse project
alternatives to determine whether they are supported and based on valid criteria, analysis and
assumptions.

Background

The Administrative Office of the U.S. Courts (AOC) reports that Los Angeles federal court
operations face serious space shortages, security concerns, and operational inefficiencies. The
judiciary’s internal five year plan has identified the Los Angeles Courthouse as the highest
priority project in the country. Court operations in Los Angeles are currently split between two
buildings – the Spring Street Courthouse built in 1938 and the Edward E. Roybal Federal
Building and Courthouse built in 1993.

In July 2000, the House Committee on Transportation and Infrastructure authorized and
Congress appropriated funds to design a new 41-courtroom courthouse in Los Angeles. Through
fiscal year 2005, Congress had appropriated approximately $400 million for the project. The
General Services Administration (GSA) has acquired and prepared a site in downtown Los
Angeles for construction of the new courthouse at a cost of approximately $16.9 million. It has
also spent $16.3 million on courthouse design. However, the project has experienced several
delays, and in March 2006, GSA cancelled the procurement when it became apparent that the
construction cost was going to exceed the approved budget.

As GSA reconsidered its strategy to meet the Court’s needs, the local construction market
experienced further cost escalations as demand for construction labor and materials has grown in
the Southern California market. Consequently, GSA has evaluated a number of project
alternatives and has provided various cost estimates to stakeholders as a way of determining
what can be built within the current budget, and how much further funding may be necessary.

Because of the challenges faced by the Los Angeles Courthouse project, in particular the
probable need for more funding, Congress asked the GSA Office of Inspector General to review
the project cost estimates to determine whether they are supported and based on valid criteria,
analysis and assumptions.

Results in Brief

According to the Government Accountability Office, “Cost estimating requires both science and
judgment. Since answers are seldom – if ever – precise, the goal is to find a reasonable ‘answer.’
Cost estimates are based on many assumptions, including the rate of inflation and when




                                              Page i
 
construction will begin. Generally, the more information that is known about a project and is
used in the development of the estimate, the more accurate the estimate is expected to be.1”

We reviewed cost estimates for each of the four project alternatives that had been under
consideration prior to the start of our work, as well as a fifth option that was later considered and
adopted by GSA. We observed that Public Buildings Service (PBS) used valid methodologies to
develop each of the project alternative cost estimates. However, the different methodologies are
based on varying degrees of cost support and detail. Therefore, cost estimate accuracy may also
vary. Further, some critical estimate assumptions were judgmental or even unknown. Subjective
escalation rates and a 15 percent “limited market fee” have considerable impact on projected
costs and, if inaccurate, would greatly reduce estimate reliability. Additionally, estimates did not
clearly identify project assumptions, thus adding a degree of uncertainty, as we were unable to
ascertain what the actual construction or renovation would entail. It should also be noted that
construction time frames related to these alternatives play an important part in evaluating the cost
estimations – the longer the construction time frame extends out, the more the estimated costs
increase due to projected cost escalations and the less reliable the estimates become.

Recommendation

We recommend that the Commissioner of the Public Buildings Service improve PBS’s
construction cost estimating accuracy by monitoring cost estimates against actual results to
identify factors that could be enhanced.




                                                            
1
 May 2008 GAO report, “PRISON CONSTRUCTION: Clear Communication on the Accuracy of Cost Estimates
and Project Changes is Needed”

                                                               Page ii
 
INTRODUCTION


Background

The Administrative Office of the U.S. Courts (AOC) reports that the Los Angeles federal court
operations face serious space shortages, security concerns, and operational inefficiencies. The
judiciary’s internal five-year plan has identified the Los Angeles Courthouse as the highest
priority project in the country. Court operations in Los Angeles are currently split between two
buildings – the Spring Street Courthouse built in 1937 and the Edward R. Roybal Federal
Building and Courthouse built in 1993.

These issues have been on-going for more than two decades. In 1985, the General Services
Administration (GSA) received approval to build a new courthouse and federal building to
supplement the existing Spring Street Courthouse and meet the expansion needs of the U.S.
Courts operations in Los Angeles. However, the AOC favored the construction of an annex for
the existing courthouse. At that point, the General Accounting Office2 (GAO) was asked to
examine the proposed alternatives and determined that there was insufficient evidence for
Congress to reconsider the approved project.3 Eventually, the new courthouse (the Roybal
Courthouse) was completed in 1993. It provided 28 courtrooms (10 district and 18 bankruptcy)
as well as the capability for converting office space to additional courtrooms in the future, but
left the District Court operating out of two courthouses. In 1998, funds for build-out of six
magistrate courtrooms in 312 North Spring Street were reprogrammed for build-out of the six
magistrate courtrooms in the Roybal Building.

Even after the construction of the new courthouse and federal building, the housing needs of the
Courts were still an issue as concerns arose about the security of the Spring Street Courthouse
and the split operations of the Courts. GSA contracted for a new study to examine how these
needs could be addressed. The June 1997 Feasibility Study/ Master Plan4 study examined the
then-current court conditions, as well as viable alternatives to meet the 10- and 30-year space
requirements of both the Courts and GSA. Five alternatives that would achieve both GSA’s and
the Court’s long term goals were considered.

In July 2000, the House Committee on Transportation and Infrastructure authorized and
Congress appropriated funds to design a new 41-courtroom courthouse in Los Angeles and
through fiscal year (FY) 2005 had appropriated approximately $400 million for the project. The
project goal has been to relieve overcrowding, reduce the inefficiencies of splitting operations
between two buildings, and improve security. Since then, GSA has acquired and prepared a site
in downtown Los Angeles for construction of the new courthouse at a cost of approximately
$16.3 million. It has also spent $16.9 million on courthouse design.


                                                            
2
  The General Accounting Office is now called the Government Accountability Office. 

3
  GAO Briefing Report, “New L.A. Federal Courthouse: Evidence Is Insufficient to Suggest That Congress 

Reconsider Its Approval,” March 1988 (GAO/GGD-88-43BR). 

4
  U.S. Courts, Central District of California, Los Angeles Feasibility Study/ Master Plan study, released by Kaplan 

McLaughlin Diaz June 24, 1997 under GSA Contract No. GS-09P-KTD-0088.


                                                               Page 1
 
However, the construction project incurred several delays, including one caused by designing the
courthouse with 54 courtrooms rather than the authorized and funded 41 courtroom building.
Then in March 2006, GSA cancelled the procurement for the construction contractor when one
of the two contractors bidding on the project withdrew and it became apparent that the
construction cost was going to exceed the approved budget.

As GSA has reconsidered its strategy to meet the Court’s needs, the local construction market
experienced further cost escalations as demand for construction labor and materials grew in the
Southern California market. In an effort to regroup, in October 2006 GSA hired a contractor to
perform a market study for construction in the Los Angeles area. This study showed that local
construction contractors expressed concerns over the size of the project, the adequacy of funding,
and GSA’s ultimate commitment to proceed with the project.

In addition, GSA also tried to identify its options using the available funding. GSA developed a
proposal to renovate both the Roybal and Spring Street Courthouses using the available funding.
In doing so, GSA commissioned a study by DMJM Design (DMJM) to develop cost estimates
and phasing plans for both the approved prospectus and the Roybal-Spring Street renovation.
The March 2007 preliminary report estimated that the cost to meet the Court’s needs through the
41 courtroom courthouse would exceed $1 billion, but that the Roybal-Spring Street renovation
could be achieved for substantially less. However, the report was never completed after the
Courts rejected the renovation option. Subsequently, in May 2007 the Courts proposed a 36-
courtroom courthouse as a possible solution. This courthouse would be based on the design for
the 41-courtroom courthouse with several changes to reduce the project costs.

GSA, in conjunction with the Office of Management and Budget (OMB), Congress, and the
Courts, has considered these project alternatives, from the scaled down versions of the original
project to extensive renovations of the existing buildings to construct additional courtrooms.
GSA has provided cost estimates to stakeholders as a way of determining what can be built
within the current budget, and how much additional funding may be necessary. To detail the
options under consideration, GSA submitted a matrix to OMB listing four courthouse project
alternatives. A subsequent fifth option was later considered.

Because of the challenges faced by the Los Angeles Courthouse project, in particular the
probable need for more funding, Congress asked the GSA Office of Inspector General to review
the project cost estimates. Specifically, on January 10, 2008 the Subcommittee on Economic
Development, Public Buildings, and Emergency Management of the Committee on
Transportation and Infrastructure requested that the audit review the cost estimates for the Los
Angeles courthouse project to determine whether those cost estimates are supported and based
on valid criteria, analysis and assumptions.

Objective, Scope and Methodology

The audit objective was to review cost estimates for the Los Angeles Courthouse project
alternatives to determine whether they are supported and based on valid criteria, analysis and
assumptions. To accomplish this objective, we reviewed cost estimating procedures for each of
the five project alternatives and traced estimate line items to source documents. We held
discussions with Public Buildings Service (PBS) staff in the Office of the Chief Architect (OCA)

                                             Page 2
 
and in the Pacific Rim Region to understand the project alternatives and estimating
methodologies. We toured the Roybal and Spring Street buildings with PBS officials to
understand the building renovations being proposed.

Audit fieldwork was conducted in the Pacific Rim Region as well as in the GSA Office of the
Chief Architect.

Fieldwork was conducted between February and July 2008. The audit was performed in
accordance with generally accepted Government auditing standards.




                                          Page 3
 
RESULTS OF AUDIT


Overview

We reviewed cost estimates for each of the four project alternatives that had been under
consideration for the Los Angeles courthouse project prior to the start of our work, as well as a
fifth option that was later considered and adopted by GSA. PBS used different methodologies to
develop these estimates since the alternatives were at different stages of development, and the
estimates were often developed within short time frames. The estimates were supported to
varying degrees as the level of detail for the respective estimates varied by the stage of
development and the methodology used. As such, in some instances the estimates included
miscalculations and judgmental assumptions, as well as many unknown variables that can still
impact the accuracy of the estimates. In addition, until a project’s scope is defined in detail, it is
difficult to accurately estimate the ultimate project cost.

Differing methodologies used to develop estimates offer varying levels of detail.

Original Construction Prospectus with 41 Courtrooms

The first option is the most recently authorized prospectus PCA-CTC-LA05. This option calls
for the construction of a new courthouse containing 41 courtrooms and 40 chambers. Further,
the Court requested the construction of four additional courtrooms in, and the partial renovation
of, the Roybal building. The Roybal building would contain 20 courtrooms and 20 chambers,
thus providing a total of 61 courtrooms and 60 chambers5 at an estimated cost of $1.139 billion.
Of this amount, $979 million is for the new courthouse, while $161 million is for the Roybal
renovation. Table 1 and Table 2 illustrate the respective cost breakdowns. This cost estimate
assumed that construction would start in 2009 and be completed by 2014.

The cost estimate for the approved prospectus project is the most detailed estimate provided. It
is based on partially completed design drawings and bridging documents, and is a hybrid derived
by Pacific Rim PBS staff from estimates prepared individually by four contractors: Jacobs
Facilities, Davis Langdon, Parametrix, and Faithful & Gould.6 The contractors were unable to
agree on an overall estimate, largely due to disagreements over steel quantities and costs.
Therefore, Pacific Rim PBS Property Development staff used what it felt were reasonable
midpoints from these estimates for each element, resulting in the base estimate of $353 million.
Overhead, profit, escalation, construction contingency, design, management and inspection, and
“limited market” costs were added to reach the total estimate of $979 million for the construction
of the new courthouse as shown in Table 1.


 


                                                            
5
    Excludes Bankruptcy courtrooms and chambers. 

6
    Under the DMJM study, cost estimates were developed by both Parametrix and Faithful & Gould.



                                                               Page 4
 
       Table 1: New Courthouse*
       Description                                        Cost
       Construction                                $ 353,607,138
       Design Contingency (5%)                          17,680,357
       Overhead (15%)                                   53,041,071
       Profit (5%)                                      17,680,357
       Subcontractor Overhead/Profit (5%)               17,680,357
            Subtotal                                   459,689,280
       Limited Market (15%)                             68,953,392
       Escalation                                      302,807,523
            Subtotal                                   831,450,195
       Construction Contingency                         58,201,514
            Subtotal                                   889,651,708
       Design                                           36,168,987
       Management and Inspection                        53,379,103
            TOTAL                                  $ 979,199,798
       * Assumes construction start/finish of 2009/2014

In addition, the estimate for the Roybal companion project was based on several studies: the
August 9, 2005 Jacobs Realignment Program Study; the June 30, 2005 R.E.M Engineering
Company, Inc. Roybal Building Engineering Report; and Roybal Seismic and Blast reports
conducted by Pacific Rim Region consultants. Construction costs were estimated at $116.6
million and include a ten percent contingency. Design and management and inspection (M&I)
were added to result in an estimated total project cost of $148.9 million. Since this estimate was
for FY 2009 design, an escalation factor of 12.167 percent was used to escalate the project to
$166.9 million for FY 2010 design. PBS expected to recover approximately $6 million in costs
from the Courts, so reduced the estimate to $161 million as shown in Table 2.
 
       Table 2: Roybal Renovation
       Description                                                Cost
       Sum of System Elements                               $     47,811,224
       Design and Site Contingency (10%)                           4,781,122
            Subtotal                                              52,592,346
       Overhead, Profit, and Bonds (20%)                          10,518,469
            Subtotal                                              63,110,816
       Escalation (68%)                                           42,915,355
       Estimated Cost of Construction at Award (ECCA)            106,026,170
       Construction Contingency (10%)                             10,602,617
       Estimated Cost of Construction                            116,628,787
       Design (14%)                                               15,852,000
       Management and Inspection (14%)                            16,366,900
       Estimated Total Project Cost                              148,847,687
       Additional Escalation (12.2%)                              18,110,298
            Subtotal                                             166,957,985
       Less Costs to be Paid by Courts                            (6,000,000)
            TOTAL                                           $    160,957,985
       * Assumes construction start/finish of 2011/2014

                                                   Page 5
 
Revised Proposal with 36 Courtrooms

The second option is a scaled down version of the 41-courtroom courthouse. This option would
provide a smaller 36-courtroom, 45-chamber courthouse with the potential to accommodate 41
courtrooms in the future. To minimize costs, the design was modified through a combination of
value engineering, program reduction, and redesign. The full height atrium was reduced to three
levels, the plan profile was simplified at the chamber side of the building, the curtain wall was
simplified, and one floor was removed from the building, reducing the size of the building from
1,106,300 to 925,096 gross square feet (GSF). Like the original prospectus, it would also involve
a partial renovation of Roybal, including the build-out of four new courtrooms. The total project
cost estimate for this option is $1.036 billion: $875 million for the new courthouse and $161
million for the Roybal companion project. This cost estimate assumed that construction would
start in 2009 and be completed by 2014.

The cost estimate for the new building for this option is based on an “adjusted scheme” of the
original prospectus, whereby the curtain wall and superstructure prices were adjusted to reflect
the above mentioned design changes. To develop this estimate, PBS adjusted the cost estimate
for the 41-courtroom courthouse from $353 million to $337 million to reflect the reduced scope
and design changes of the 36 courtroom courthouse. PBS then added design contingency,
general conditions, overhead, and profit, as well as the limited market fee, escalation, and
contingency for a total adjusted scheme of $787,621,977.

This was divided by 930,838, the square footage of the adjusted scheme, to develop a
construction rate of $846 per GSF for this modified design.7 This rate was multiplied by
925,096 GSF, the actual estimated square footage for the 36 courtroom courthouse, to reach
$782,631,000. Management and inspection costs of $23.6 million were added to reach the total
estimated project cost of $875 million, including $20.6 million for site, $19 million for design
money already spent, and $29.3 million for additional design. Calculation details are shown in
Table 3.




                                                            
7
  This $846/GSF rate assumes separate contracts for shell/core and tenant improvements. This requires extension of
the construction period, as shell must be finished before the second contractor can commence work on tenant
improvements. Consequently, an additional year of escalation is required, thus increasing construction costs by $43
million.  

                                                               Page 6
 
       Table 3: Modified Prospectus Cost Estimate Calculation*
       Description                                                Cost
       Original Prospectus Cost Estimate                       $ 353,607,138
       Adjusted Scheme Estimate                                  337,411,398
       Design Contingency (5%)                                    16,870,570
       General Conditions (15%)                                   50,611,710
       Overhead and Profit (5%)                                   16,870,570
       Additional Overhead and Profit (5%)                        16,870,570
             Subtotal (rounded)                                  438,634,817
       Limited Market Fee (15%)                                   65,795,223
       Escalation (46%)                                          231,665,266
             Subtotal                                            736,095,306
       Construction Contingency (7%)                              51,526,671
       Adjusted Scheme Estimate with Escalation                  787,621,977
       Divided by: Adjusted Scheme Gross Square Feet (GSF)           930,838
       Adjusted Scheme Construction Rate                          $ 846/GSF
       Multiplied by: Estimated Courthouse GSF                       925,096
             Subtotal (rounded)                                  782,631,000
       Site (FY 2001)                                             20,600,000
       Design (FY 2001 & 2004)                                    18,990,000
       Additional Design                                          29,296,000
       Management and Inspection (M&I) (2004)                     11,936,000
       Additional M&I                                             11,680,000
            Estimated Total Project Cost                       $ 875,133,000
       * Assumes construction start/finish of 2009/2014

As mentioned above, this alternative also involves renovation of Roybal. The cost estimate for
the Roybal renovation is displayed in Table 2 in the Original Prospectus with 41 Courtrooms
section.

Standalone Courthouse to Consolidate District Court Operations

The third option is to consolidate all District Court-related operations into one large new
building. This building would contain a total of 54 courtrooms and 60 chambers. The total cost
of this building was estimated at $1.247 billion. This option is not considered viable as Congress
has directed Roybal re-use. The calculations used for the cost estimate are shown in Table 4. This
cost estimate assumes that construction would start in 2009 and be completed by 2016.

       Table 4: Consolidate Operations*
       Description                                         Cost
       Original Prospectus Escalated Cost Estimate $ 979,534,154
       Divided by Original Prospectus GSF                   1,016,300
       Construction rate per GSF                           $ 964/GSF
       Times GSF for 54 courtroom building                  1,279,650
             Subtotal                                   1,233,582,600
       Plus demolition allowance                           13,000,000
             TOTAL                                    $ 1,246,582,600
       * Assumes construction start/finish of 2009/2016



                                                   Page 7
 
The estimate for this option is not based on a design. PBS in the Pacific Rim Region generated
the cost estimate based on the original prospectus project similar to the estimate for the smaller
36-courtroom option. Per the Project Executive, this was a fast calculation due to the limited
time to compare alternatives. To estimate project costs, the escalated cost of the original
prospectus was divided by its 1,016,300 GSF to reach a construction rate of $964/GSF. This rate
was multiplied by the 1,279,650 GSF for the larger 54 courtroom building to reach $1.234
billion. A demolition allowance of $13 million was added to reach $1.247 billion.

Roybal-Spring Street Expansion

The fourth option for the L.A. Courthouse project involves re-housing tenants in the existing
Roybal and Spring Street buildings.8 This renovation project would provide 42 courtrooms in
Roybal (16 existing, 26 new) and 17 in Spring Street (9 historic and 8 renovated), for a total of
59 District Court courtrooms. It would also provide 61 chambers. Total project costs were
estimated at $540 million: $261 million for Roybal and $269 million for Spring Street.
Additionally, $10 million was included for 300 North Los Angeles Street (300 NLA), but this
money was later reassigned to Roybal. This cost estimate assumed that construction would start
in 2008 and be completed by 2014.

The Roybal-Spring Street Expansion option is based on a conceptual design that assessed GSA
and tenant requirements, but without detailed architectural drawings. The concept was analyzed
by DMJM and is detailed in the March 2007 "Roybal FOB and Spring Street Courthouse
Expansion Study." 9 The study was initiated in an attempt to resolve differences in opinion
between GSA Pacific Rim and Central Office regarding the feasibility of renovating Roybal to
meet the District Court’s needs. The study incorporates the work of two companies that
developed estimates for the Roybal reuse: Faithful & Gould and Parametrix.10 The $540 million
estimate is the total presented by Faithful & Gould, and is the higher of the two estimates11.
According to PBS personnel, the higher of the two estimates was chosen because it represented
the worst case scenario given market conditions in Los Angeles at the time.

              Table 5: Roybal-Spring Street Expansion*
                                     Roybal          Spring Street       300 NLA          Total
              Adaptive Use        $ 138,611,111 $ 124,886,900           $ 6,836,760   $ 270,334,771
              BER/Systems            12,084,148         11,533,582                -      23,617,730
              Security/ Seismic      15,667,772         13,544,701          325,000      29,537,473
                  Subtotal          166,363,031        149,965,184        7,161,760     323,489,975
              Escalation             70,980,995         94,253,255        1,821,952     167,056,202
              Contingencies          23,734,403         24,421,844          898,371      49,054,618
                  TOTAL           $ 261,078,428 $ 268,640,282           $ 9,882,083   $ 539,600,794
              * Assumes construction start/finish of 2008/2014

                                                            
8
  The Drug Enforcement Agency and Equal Employment Opportunity Commission would move to alternative space.

9
  The DMJM study is a DRAFT report that was never finalized. 

10
   DMJM was hired to perform the re-use study for the Roybal option under a task order to an IDIQ contract. The 

study incorporated the work of Faithful & Gould, and Parametrix. Faithful & Gould provided services under a task

order to their IDIQ, while Parametrix worked under a task order to U.S. Cost, Inc.

11
   The Parametrix estimate was approximately $442 million.


                                                               Page 8
 
Both the Faithful & Gould and Parametrix estimates consist of four major components:

       Adaptive Use - project costs directly related to Court-related renovations, such as the
       addition of courtrooms, judges’ chambers, jury assembly areas, U.S. Marshals Service,
       attorney offices, etc. Adaptive use costs are estimated by using multiple rates/GSF,
       depending on type of space being converted.

       BER/Systems - renovation work items identified by a Building Engineering Report
       (BER), a building study from a private consultant commissioned by PBS, to determine
       building deficiencies.

       Security/Seismic - work items identified through other studies, such as seismic
       evaluation, blast vulnerability assessment and a previous realignment study that
       developed work needed in the building.

       Escalation - building construction work is escalated on a phase by phase basis, until the
       mid-point of construction for each phase. Escalation is computed annually based on the
       GSA General Construction Cost Review. Rates must be approved by OMB.

Additionally, a 10 percent factor was added to the respective totals for contingencies. This is the
standard GSA contingency for renovations.

It should be noted that the DMJM Roybal Re-use study was performed quickly, over only a two-
month period according to one OCA employee. Further, the study is only a draft, as the
consultant was directed by GSA at the request of the Courts to stop all work on the Roybal
Alternative and to focus solely on reconciling the cost estimate for the new courthouse. As a
result, estimates for Roybal have not been refined to the same level of detail as the estimate for
the approved prospectus.

The assumptions utilized by the cost estimating contractors for the Roybal renovation could not
be ascertained or assessed as the work was performed without written scopes of work. PBS was
only able to provide limited documentation regarding the scope of the work performed and the
assumptions utilized. Without a clear and documented scope of work, it is difficult to determine
exactly what work the contractor was supposed to perform, what assumptions PBS had instructed
the contractor to follow, and what assumptions were the responsibility of the contractor.

As this option is still at a conceptual stage, potential changes to the assumptions can affect the
cost estimate. For example, the scope of work for Roybal on floors 13 through 16 includes
converting U.S. Bankruptcy courtrooms to U.S. Magistrate courtrooms. In a spreadsheet listing
differences between the OCA and the Pacific Rim Region in what project work each deemed
necessary, OCA and the Region both estimated the cost to be approximately $6.6 million.
However, there are major differences in the underlying assumptions. In one instance, the Region
estimated that $4.5 million would be required to demolish and replace millwork in the U.S.
Bankruptcy courtroom, while the OCA estimate stated that there was no need for demolition or

                                              Page 9
 
new millwork for this space.12 According to information provided by DMJM to support the
estimate for the work in Roybal, the estimate values the work on floors 13 through 16 at about
$21 million. According to DMJM, all converted courtrooms were upgraded as the goal was to
make Roybal renovation as comparable as possible to new construction. As the project becomes
more refined and these differing assumptions get resolved, the cost estimate is likely to change.

During our review of cost estimates, in response to an audit inquiry, DMJM identified two
double-counting errors in the BER/Systems calculation. With escalation, these errors result in an
overestimation of $1,112,907. Additionally, some BER work items added to the project estimate
for Roybal and Spring Street are now in progress or have been completed. For Roybal, the
bollard installation project has commenced; with the escalation applied in the study, the cost is
$4,805,235. In the Spring Street building, the replacement of the boilers has been completed;
with the escalation applied in the study, this cost is $614,694. These amounts should be deducted
from the cost estimate for this option.

Our review of the DMJM study also identified two additional calculation errors. The first was a
double escalation that was applied to Court Infrastructure13 and Accessibility costs. These costs
were brought into the calculation as 2011 costs, but were escalated again to the midpoint of the
phase.14 As a result, Estimated Court Infrastructure costs were overstated by $2.5 million, while
the Accessibility costs were overstated by $449,836. Second, Phase I was escalated to the end of
the 12 month phase, not to the 6 month mid-point as required. The effect is an overestimation of
Phase I costs by approximately $1.5 million.

20 Courtroom Building with Roybal Renovation

Another option, developed subsequent to the start of the audit, was to construct a smaller
courthouse and renovate existing space at Roybal. The new courthouse would contain 20
courtrooms and 20 chambers, while Roybal would contain 46 courtrooms and 55 chambers.15
The total project cost is estimated at $701 million: $378.6 million for the new building (see Table
                                                              16
6) and $322.5 million for the Roybal renovation (see Table 7).




 

 

                                                            
12
   When the audit team made a site visit to the Roybal Building, the millwork in the current space appeared to be in

pristine condition. 

13
   Court Infrastructure costs are Court requested items from a previous Roybal Realignment study consisting of a 

new mailroom, lobby screening and access controls. 

14
   Escalation is applied on a phase by phase basis, based on the mid-point for each individual phase. 

15
   Including 10 Bankruptcy courtrooms and chambers 

16
   Renovation costs were rounded up to $322.5 million per the amended prospectus.


                                                               Page 10
 
 

       Table 6: New U.S. Courthouse*
       Description                                                                  Cost
       Site (FY 2001)                                                         $ 20,600,000
       Design (FY 2001 & 2004)                                                    18,990,000
       Additional Design**                                                        11,545,000
       Estimated Construction Cost ($730/GSF including inside parking)           318,000,000
       Management and Inspection                                                    9,500,000
             TOTAL                                                            $ 378,635,000
       * Assumes construction start/finish of 2010/2013 

       ** This design is no longer valid and the request for additional design is for the 

       design of the new building as proposed.


Estimated construction costs for the new courthouse are based on the OCA benchmark tool. The
benchmark tool priced the project at a 3.5 year construction period and assumes construction can
begin one year after design. Per the revised draft prospectus, estimated construction costs for the
new courthouse are based on a rate of $730/GSF (including inside parking), in addition to $20.6
million for site acquisition, $19 million for design already spent, $11.5 million for additional
design, and $9.5 million for management and inspection.

PBS has been using benchmarks to set and validate project budgets since FY 1994. The
benchmark tool is periodically refined and updated, and in 2006 was updated and used for
projects beginning in 2009. The current benchmark tool develops the project costs by pricing out
the costs for 10 previous courthouse projects (the 2004 version of the tool used 4 projects). The
tool uses this information to standardize costs by building element and then uses this as the basis
for developing a cost estimate based on specific elements of the planned courthouse. These
elements include the number of courtrooms and chambers, square footage, parking, locality, etc.
The benchmark tool then calculates the estimated cost for the project as of the end of FY 2006.
PBS then escalates the estimated project cost to the projected midpoint of construction.
Currently, PBS uses its own escalation rates, but prior to FY 2007 PBS used escalation rates
approved by OMB. This escalated project cost becomes the benchmark, which is used to
validate and/or establish the project budget.

Project managers are expected to oversee the design and construction processes to ensure the
project costs stay within the benchmark. Typical costs drivers that they should monitor include
building efficiency, site conditions, structure, exterior closure, etc. It should be noted that the
target building efficiency for the benchmark is 67 percent, but a PBS study found the average
courthouse efficiency is only 62 percent. This and similar deviations from the benchmark targets
for other elements will cause the project to be over-budget unless steps are taken to reduce costs
in other aspects of the project.

Currently, the historical data needed to evaluate the benchmark calculation and the escalation
rates is not available as the current benchmark tool was initially used for projects proposed in the
FY 2006 budget, many of which are not complete.




                                                    Page 11
 
       Table 7: Roybal Renovation*
       Description                                             Cost
       F&G Roybal cost excluding Design and M&I            $261,078,428
       Jury assembly addition (transferred from 300 NLA)      13,000,000
            Subtotal                                         270,960,511
       Additional year of escalation (6%)                     16,444,705
       Design                                                 21,000,000
       Management and Inspection                              10,500,000
            TOTAL                                          $ 322,023,313
       * Assumes construction start/finish of 2010/2014

Construction costs for the Roybal companion project, shown above in Table 7 are based on the
Faithful & Gould estimate of $261 million, plus $13 million for additional jury assembly space
(moved from 300 North Los Angeles Street), and $16 million for an additional year of
escalation. Twenty-one million dollars are added for design and $10.5 million are added for
management and inspection. Total renovation costs were estimated at $322 million.

Estimates use judgmental escalation rates and “limited market fee.”

When estimating construction costs, PBS used the escalation rates shown in Table 8. Per the
August 2004 "Managing the Cost of Courthouse Projects within the Benchmark," escalation
rates may be obtained from the General Construction Cost Review Guide (GCCRG) but must be
approved by OMB. However, PBS moved off OMB escalation rates for benchmark calculations
in 2007. Instead, PBS now uses independent market surveys. The 16 percent rate for 2007 was
based on a six-month period per a market study by Faithful & Gould. Subsequent annual rates
were judgmental, based on the assumption that the Los Angeles market could not sustain such
high rates. PBS consultants concurred with the estimated escalation rates. To evaluate the
projected escalation rates, we contacted representatives of the Los Angeles school district and
police department who were familiar with the local construction market. While they were not
sure about the specific escalation rates used by PBS, they did agree that the market is cooling
down.

It should also be noted that construction time frames related to these alternatives play an
important part in evaluating the cost estimations – the longer the construction time frame extends
out, the more the estimated costs increase due to projected cost escalations and the less reliable
the estimates become.

       Table 8: Escalation Rates
          Year          Rate
          2007           16%
          2008           12%
          2009           8%
          2010           8%
          2011           6%
          2012           6%
          2013           6%

                                                 Page 12
 
In addition, PBS estimates for the Los Angeles courthouse project alternatives also include a 15
percent “limited market fee.” This factor was added to the project costs to compensate for the
limited bidders for this project in the Los Angeles market. Market surveys of potential bidders by
PBS indicated limited interest in this project, as the construction community had concerns over
the size of the project and the perceived difficulties of working with the Federal Government.
The project had already experienced the withdrawal of one of the two original bidders. The 15
percent figure appears to be subjective, although OCA noted that its consultants (DMJM,
Parametrix, and Faithful & Gould) suggested it based on their experience in the Los Angeles
market. However, Pacific Rim Region staff questioned the need to add this cost factor and felt
they had taken actions to mitigate the effect of the local market conditions. In particular, the
project had been separated into two smaller awards, one for shell/core and one for tenant
improvements. Smaller awards may open up the project to more bidders.

Conclusion
 
According to the Government Accountability Office, “Cost estimating requires both science and
judgment. Since answers are seldom – if ever – precise, the goal is to find a reasonable
‘answer’.” Cost estimates are based on many assumptions, including the rate of inflation and
when construction will begin. Generally, the more information that is known about a project and
is used in the development of the estimate, the more accurate the estimate is expected to be.17”

For the Los Angeles Courthouse project, the available information for each option varies along
with the methodologies used to develop the cost estimates. PBS used different methodologies to
develop the cost estimate for each of the project alternatives and the different methodologies are
based on varying degrees of cost support and detail. As such, those estimates that are more
refined and based on more detailed information should be more accurate. Further, the accuracy
of the cost estimates will depend on the resolution of the assumptions used as the basis for
certain project alternatives, as some critical estimate assumptions were judgmental. The
assumptions for some estimates were not clearly identified, thus adding a degree of uncertainty
as to what the actual construction or renovation would entail. Additionally, subjective escalation
rates and a 15 percent “limited market fee” have considerable impact on projected costs and, if
inaccurate, would greatly reduce estimate reliability.

Recommendation

We recommend that the Commissioner of the Public Buildings Service:

1.	 Improve PBS’s construction cost estimating accuracy by monitoring cost estimates against
    actual results to identify factors that could be enhanced.




                                                            
17
  May 2008 GAO report, “PRISON CONSTRUCTION: Clear Communication on the Accuracy of Cost Estimates
and Project Changes is Needed”

                                                               Page 13
 
Management Comments

PBS management concurs with the audit recommendation. Management comments are included
in their entirety in Appendix A of this report.




                                       Page 14
 
APPENDIX A – MANAGEMENT COMMENTS





                                       


                          Page A-1

 
                 




    Page A-2

 
    Page A-3

 
APPENDIX B – REPORT DISTRIBUTION

 

                                                                                                                    Copies


Commissioner, Public Buildings Service (P)............................................................................. 3
Regional Administrator, Pacific Rim Region (9A).................................................................... 1
Regional Inspector General for Audits (JA-9) ........................................................................... 1
Regional Inspector General for Investigations (JI-9)................................................................. 1
Assistant Inspector General for Auditing (JA, JAO) ................................................................. 2
Assistant Inspector General for Investigations (JI) .................................................................... 1
Branch Chief, Internal Control and Audit Division (BEI) ......................................................... 1
 




                                                         Page B-1
 
